                                              OIG Briefing Report
                                               US Department of Commerce
                                                Office of Inspector General
                                                        June 2008


Census 2010:	                 OIG Reviews Through the Decade Identify
                              Significant Problems in Key Operations
                              (OIG-19217)

This report responds to the Secretary’s request for a briefing on our work on the 2010 decennial
census. It summarizes our key decennial reviews to date and highlights continuing problems we
have identified in the areas of contracting, maps and address lists, systems development, and
enumerating hard-to-count populations. These are issues that require the bureau’s close attention
and that continue to direct our decennial oversight activities. Complete details of these issues and
our related findings and recommendations are contained in the reports referenced throughout.
(Reports are available at www.oig.doc.gov.)

Field Data Collection Automation (FDCA) Contract
(OSE-17368, OIG-17524)

The Census Bureau’s decision in 2001 to automate certain major operations for the 2010
decennial was a radical departure from traditional census-taking methods—one that posed
significant risks while offering considerable potential efficiencies, savings, and improvements in
the count. This decision and its inherent risks have framed much of our oversight of the bureau’s
preparations for 2010.

The handheld computer systems Census proposed using were the centerpiece of its reengineered
field operations. The presumption of their use for developing address lists and enumerating
people who did not mail back questionnaires (nonresponse follow-up) guided the bureau’s
decision making for conducting virtually all major operations. The subsequent problems
encountered with their development have led to an enormous growth in the estimate to complete
the FDCA contract, and have impacted the entire 2010 operational plan.


                                   Increase In FDCA Cost Estimates Over Time

                     $1,400
                     $1,300
                     $1,200
                     $1,100
          Millions




                     $1,000
                       $900
                       $800
                       $700
                       $600
                       $500
                          Jan-05     Jul-05    Jan-06    Jul-06     Jan-07    Jul-07   Jan-08
                                                        Date of Estimate
We reported in 2005 numerous issues with the acquisition process for the handheld devices.
Though the bureau decided in 2004 to contract for the systems, it took nearly 2 years to actually
award the contract, which greatly diminished time for developing and testing the handhelds.
Census also failed to adequately define system requirements, a situation that has plagued their
development. Lacking sufficient technical and program management resources reduced from the
outset the bureau’s odds of developing functional systems on time and within budget.

Census had originally intended to develop the system in-house and tested prototypes in both
2004 and 2006. The devices and related systems had serious problems in both tests, including
crashes, slow response times, and lost data. These experiences should have informed the
bureau’s efforts to define requirements for the contractor, but they did not. Since letting the
contract, Census has changed and added numerous requirements before finally abandoning plans
to use these devices for nonresponse follow-up. We are closely monitoring its efforts to retool
operations to accommodate this change.

Maps and Addresses
(OIG-17524, OSE-18027, OSE-15725)

The National Academy of Sciences reported in 2000 that “the address list may be the most
important factor in determining the overall accuracy of a decennial census.” 1 But developing an
accurate master address file (MAF) and maps has been a long-standing problem for the Census
Bureau. (Census relies on a digital mapping system, known as “TIGER”.) Our reviews have
found numerous instances in which enumerators are sent into the field with incorrect maps and
address information.

Map and Address Reliability. In Census 2000, the
master address list contained millions of duplicates.
This year, our review of the address canvassing
operation conducted during dress rehearsal
continued to find errors in the lists that resulted in
duplicate addresses or missed housing units. (A
report detailing our specific findings is
forthcoming.)

Inadequate maps and address lists were an issue
during the 2006 test of update/enumerate—the Four             people attempted to sort out this area using maps that
                                                         lacked landmarks and some roads. They introduced numerous
paper-based operation Census uses to survey errors to the housing information.
American Indians living on reservations—and these
tools were a key factor in the operation’s failure to improve the population count. We found that
enumerators often could not locate the households they were assigned to survey because maps
lacked current community landmarks and other details that help one navigate large rural
communities devoid of traditional postal addresses. Census officials told us that due to the high
cost, they have not updated most landmark features on their maps in 20 or 30 years.

The bureau had expected the handheld devices to facilitate its ability to improve map details and
address lists during address canvassing. But the technical problems with the systems we noted in

1
 National Research Council (2000). Redesigning the 2010 Census: First Interim Report. Panel on Research on
Future Census Methods, Committee on National Statistics. Washington, D.C.: National Academy Press.

                                                         2

both the 2004 and 2006 tests prevented field staff from making the extensive corrections needed.
To compensate for the map deficiencies, we recommended that the bureau equip enumerators
with handheld computers containing GPS for navigation and the GPS coordinates collected
during address canvassing. Census agreed to consider this option and share its decisions with us,
but we have not yet received any proposals concerning this recommendation.

System and Software Development. Shortly after the 2000 census, the Census Bureau initiated
an in-house upgrade of the technology supporting MAF/TIGER to improve map and address
accuracy for 2010. We evaluated the upgrade project in its early stages, and found that the
bureau did not have an effective management process in place at the project’s inception: system
requirements, a work plan, and project schedule were not developed in tandem, and this complex
redesign got a late start. We were concerned that the new system would not be thoroughly tested
in time for the 2008 dress rehearsal. We also found that the bureau’s software development
process did not follow key industry standards and best practices for minimizing risk. Our
evaluation of dress rehearsal operations found that system development is incomplete: still
unavailable are capabilities needed to update certain maps and analyze address accuracy.

Quality Control. Without sound quality control procedures, Census lacks assurance that field
operations are working as intended and the data collected is reliable. Weaknesses in quality
control have been a recurring theme in our evaluations of both the 2000 and 2010 operations,
particularly as they relate to maps and addresses.

Our reviews of operations tested in 2006 recommended some enhancements to the quality check
for group quarters address lists to improve their accuracy, and to quality procedures in
update/enumerate to better identify missed housing units.

In this year’s dress rehearsal, the bureau greatly streamlined quality control procedures for
address canvassing, but technology problems prevented Census from collecting reliable data to
assess and improve the procedures before 2010. For example, field staff conducting the quality
check had difficulty downloading address data to their handheld computers, and computer-
generated tracking reports incorrectly described the operation’s progress.

Hard-to-Count Populations
(OSE-18027, IPE-18046, OIG-16949)

People who do not have a permanent residence, who move regularly, are homeless or live in
remote or inaccessible areas, or who live in certain types of group situations (e.g., prisons,
college dormitories) are especially difficult to count. The Census Bureau develops separate
operations that target these groups. We evaluated the 2004 and 2006 tests of several of the
operations the bureau has planned for Census 2010.

Update/Enumerate. This operation, used to survey reservations and other sparsely populated,
remote locations, sends enumerators door to door to survey residents and update map and
address information. Reservation populations historically have been undercounted in decennial
censuses, largely because several families share a single residence, and family members may be
unwilling or unable to accurately report how many people actually reside at a particular address.
As part of its 2010 redesign, Census revised the update/enumerate questionnaire to better capture
these numbers. But our review of the update/enumerate operation tested in 2006 evaluated the
impact of this change and found it to be ineffective: despite the test’s primary objective of

                                               3

finding more people, the revised questionnaire identified only 16 households as having
additional members, and ultimately only one person was added to the total number of residents in
these households. We identified a number of reasons for the poor outcome, among them that
many enumerators failed to ask the survey question designed to identify additional household
members. We recommended a number of options the bureau should consider, including
improving enumerator training.

Group Quarters. According to Census 2000 data, some 7.8 million people live in group
situations (college dormitories, nursing homes, prisons, and group homes). These residents are
hard to count accurately, partly because developing precise criteria for identifying who to include
in this group is difficult. If a group quarters is misidentified as a single-family residence, it will
be sent the household questionnaire, which is not effective for counting unrelated persons and
increases the likelihood of errors in the count and does not provide specific group quarters
information.

The group quarters enumeration approach tested in 2004 made little progress in improving the
bureau’s ability to count this population: our review found that the criteria were ambiguous and
were developed after training materials had been prepared. The materials therefore did not
provide adequate instruction for enumerators on how to differentiate and properly categorize
certain types of group homes. The bureau also failed to adequately test a new category it had
added—off-campus, university-leased housing.

For the 2006 test, Census addressed some of the problems
we identified in 2004. It developed and verified a list of
group quarters (which included several colleges and
universities, and a state prison), and either helped residents
complete the form, left census questionnaires to be picked
up at a later time, or used administrative records to fill in
the needed information. Even so, the response rate among
college students was low: only 719 of 6,700 (11 percent) of
the questionnaires were returned. We recommended,
among other things, that Census evaluate its distribution
methods to see if they contributed to the low return rate and                      Small residential group quarters often blend into
explore using student e-mail addresses and an Internet                             single family neighborhoods and are incorrectly
                                                                                   enumerated. In the 2006 test, this house in the
response option to promote a greater return. To date,                              Austin, TX, test site was not counted as a group 

Census has not explored these options, citing cost, privacy,                       quarters.

and security concerns. 


Outreach. Effective outreach is an important component in improving the count among hard-to-
enumerate groups. We found that during the 2006 census test, the bureau had yet to develop a 

fully functional database to leverage the support of the thousands of community partners that had 

helped improve response rates by publicizing Census 2000. Without a good database, Census 

will have difficulty efficiently communicating with partners and tracking the time and resources 

they’ve committed to the outreach effort. Partnership specialists for 2010 are already on board

and conducting outreach, but a database is still unavailable. 

(For more information, contact the Office of Inspector General at 202-482-4661.)




                                                              4

